UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




       Financial Remedies and Other
            Settlement Terms


                Report No. OIG-AMR-63-10-02




                                              September 2010
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                        WASHINGTON, DC 20570

September 10, 2010

We conducted a review of Financial Remedies and Other Settlement Terms,
Report No. OIG-AMR-63-10-02, to evaluate the controls over the computation
of backpay and the nature of other settlement terms. We also reviewed the
accuracy of backpay-related data entered in the Agency's case management
system.

We generally found that the controls over the computation of backpay were not
working in the sense that the Regional Offices reviewed were not following
them. Some of our findings involve very basic procedural requirements
including collecting information to calculate backpay and providing forms to
employees. Others, however, involve the exercise of the Agency's discretion to
approve a settlement of a case for less than 80 percent or more than 100
percent without proper authorization.

These findings related to the controls are similar to those identified by the
Division of Operations-Management's annual quality reviews of Regional
Offices. Because that review process does not appear to be working, we are
recommending that the Division of Operations-Management develop and
implement new control techniques.

We also found that the backpay data in the Case Activity Tracking System is
not reliable. In making that determination, we used a threshold error rate of
10 percent and tested 23 data elements. We found significant errors in 8 of the
23 data elements. The types of errors identified would not be detected in a
standard Case Activity Tracking System error query.

Because of that level of error in the data, we were not able to rely on the data to
determine Agencywide statistics for the number of employees eligible for
reinstatement, the total amount of backpay due, or the number of cases
involving organizing campaigns or first contract bargaining. Our
recommendations also addressed this issue.
                                      TABLE OF CONTENTS

BACKGROUND.......................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY............................................... 2

FINDINGS................................................................................................. 3

NATURE OF CASES .................................................................................. 3

BACKPAY AND REINSTATEMENT IN ORGANIZING CASES......................... 4

BACKPAY CONTROLS............................................................................... 5

Obtaining Information to Calculate Backpay Early .......................................... 6
Interim Earnings in Affidavits.......................................................................... 6
Backpay Forms to Employees.......................................................................... 7
Documentation of Backpay Calculation ........................................................... 7
Documentation of Waiver of Reinstatement ..................................................... 8
Backpay Settlements....................................................................................... 8
Less than 80 Percent Backpay ........................................................................ 9
Settling at 80 Percent...................................................................................... 9
Oversight of Settlements by Operations-Management .................................... 10
Employer’s Share of FICA Tax ....................................................................... 11

DATA ACCURACY OF CATS .................................................................... 11

Using Backpay Data to Determine Agencywide Statistics ............................... 12
Total Backpay Due........................................................................................ 13

INCONSISTENT CRITERIA ...................................................................... 13

RECOMMENDATIONS ............................................................................. 14

ATTACHMENT - CATS DATA ELEMENTS TESTED ................................... 15

APPENDIX

        Memorandum from the Associate General Counsel, Division of
        Operations-Management, Discussion Draft of Report “Financial Remedies
        and Other Settlement Terms” – Agency Response, dated August 27, 2010
                                 BACKGROUND

The remedies for a violation of the National Labor Relations Act (NLRA) are
remedial in nature and are intended to restore the situation to that which
would have taken place had the violation not occurred. When an NLRA
violation has resulted in the loss of employment or earnings, backpay is the
standard Board remedy. In keeping with the remedial nature of the NLRA
remedies, the goal of the National Labor Relations Board (NLRB or Agency) in
determining backpay is to make whole the person who has suffered from a
violation for earnings and other compensation lost as a result of that violation.

The backpay remedy also effectuates the purposes of the NLRA by discouraging
employers from further unfair labor practices and by assuring employees that
the Government is protecting their rights under the NLRA. Backpay is based
first on the earnings an employee would have had but for the unlawful action.
Against this gross amount is offset the employee's actual earnings from other
employment that took place after the unlawful action, less the necessary
expenses incurred by the employee in seeking and holding interim
employment.

Although backpay awards can result from a Board order, more commonly,
backpay awards are the result of negotiated agreements between the parties.
The policy issued by the Board and the General Counsel states that the Agency
is to actively encourage the parties to reach a mutually satisfactory resolution
of unfair labor practice cases at the earliest stages. Regional Offices can seek
to obtain either a formal settlement agreement, which is approved by the
Board, or an informal settlement agreement, which is approved by the Regional
Director or Administrative Law Judge if a hearing has begun. Both types of
settlement agreements allow for the Agency to police compliance with the
agreement.

The parties may also enter into an agreement among themselves that satisfies
the charging party, resulting in the withdrawal of a charge. These are called
non-Board settlements. Non-Board settlements do not have the Board’s
approval and are not policed by the Agency. The Regional Director, however,
has the discretion to reject a non-Board settlement that is repugnant to law
and policy. Non-Board settlements account for the majority of cases in which a
financial remedy is paid.

The Agency reported that the Regional Offices recovered $77,611,322 on behalf
of employees as backpay or reimbursement of fees, dues, and fines during
Fiscal Year (FY) 2009. Additionally, a total of 1,549 employees were offered
reinstatement.
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the controls over the computation of
backpay and the nature of other settlement terms. We also reviewed the
accuracy of backpay-related data entered in the Agency's Case Activity
Tracking System (CATS). Our scope includes unfair labor practice cases
involving financial remedies and other settlement terms that closed during FY
2009. We conducted this audit at NLRB Headquarters in Washington, DC and
at the following four Regions: Region 4 – Philadelphia; Region 9 – Cincinnati;
Region 16 – Fort Worth and the Houston Resident Office; and Region 19 –
Seattle. These Regions were chosen as being representative of the Agency as a
whole based on many factors related to their administration of backpay.

We reviewed the NLRA, the Agency’s Rules and Regulations, Division of
Operations-Management (Operations-Management) and General Counsel
memoranda, and the NLRB Casehandling Manual to learn about the policies
and procedures for administering backpay and for handling settlement
agreements. We reviewed the Regional Office Support Staff Manual to learn
how backpay and non-Board settlements are recorded. We reviewed the
Quality Review Memoranda for the 32 Regional Offices to learn about issues
with administering backpay and non-Board settlements.

We interviewed staff in Operations-Management and conducted field work in
four Regional Offices. Through that process we learned about how backpay
and non-Board settlements are processed and received suggestions about how
to improve the efficiency of administering backpay and non-Board settlements.
We obtained data from CATS and computed statistics related to backpay and
non-Board settlements.

We selected a judgmental sample of 24 cases that closed during FY 2009
involving a financial remedy in each of the Regions we visited. This sample was
selected based on a review of the CATS data and includes cases that closed
through a non-Board settlement, informal settlement agreement, Board order,
or Court judgment. The composition of those cases is shown in the table
below.




                                       2
                                Region 4       Region 9 Region 16     Region 19
Pre-Complaint Non-Board
Settlement
 Pre-Merit Determination                   6         5            2               2
 After Merit Determination                 1         1            3               1
 Deferred                                  1         9            6               5
Pre-Complaint Informal
                                           3         0            3               4
Settlement
After Complaint
 Non-Board Settlement                      9         3            7               6
 Informal Settlement                       2         2            2               5
 Board Decision                            0         2            0               1
 Court Order                               2         2            1               0

For each sample of cases, we tested the accuracy of 23 data elements in CATS
and compliance with Agency policy regarding backpay and non-Board
settlements.

During our review of the case files in Region 19, we identified that items were
added to the case files from the Portland Subregional Office and data in CATS
was changed after that office was notified of the field visit. As a result, the
cases in our sample from the Portland Subregional Office were removed from
our testing.

This audit was performed in accordance with generally accepted government
auditing standards during the period January 2010 through July 2010. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings based on our audit
objectives.


                                   FINDINGS

NATURE OF CASES

The backpay remedy can arise in many different circumstances. The most
obvious types of cases involve employees who are discharged for their activities
involving organizing campaigns and first contract bargaining, in which a labor
organization is trying to gain entry into a workplace, and employees who are
discharged for engaging in protected concerted activities. Less obvious cases
involve backpay in an instance in which there is no discharge. Those cases
include instances in which the employer makes a unilateral change to a benefit
that affects all of the employees in the bargaining unit.


                                       3
During FY 2009, the Agency closed 1,770 cases that involved backpay and/or
reinstatement. As shown in the table below, the majority of those cases closed
as a result of pre-complaint non-Board settlements.

                                                Number of Cases       Percent
Pre-Complaint Non-Board Settlement                        1,090           61.58
Post-Complaint Non-Board Settlement                         148            8.37
Pre-Complaint Informal Settlement                           152            8.59
Post-Complaint Informal Settlement                          244           13.79
Contested Board Order                                        55            3.11
Uncontested Board Order                                      30            1.71
Court Order                                                  46            2.60
Formal Settlement                                             2            0.11
Not Specified                                                 3            0.17

Most of these cases involved only a few recipients of backpay. Over 50 percent
of the cases involved a single individual receiving backpay, and 70 percent had
less than 10 employees receiving backpay. The largest number of backpay
recipients was 2,000 employees.

In over half the cases involving backpay, there were no employees eligible for
reinstatement. For the remaining cases, over 75 percent of them involved only
one employee. At the other extreme, the largest number of employees eligible
for reinstatement was 300 employees. This was a case in which an entire
bargaining unit was discharged and then put back to work pursuant to a non-
Board settlement approximately 6 weeks after the charge was filed.


BACKPAY AND REINSTATEMENT IN ORGANIZING CASES

One area of concern that was expressed to us by stakeholders involved
settlements of backpay cases involving organizing campaigns and first contract
bargaining, in which a labor organization is trying to gain entry into a
workplace. Discharging an employee who is trying to organize an employer
could have a detrimental effect on the organizing campaign. Of the 96 cases
tested, we observed that 28 involved either an organizing campaign or first
contract bargaining and 24 of those cases also involved an unlawful discharge.

Overall, reinstatement after discharge during organization activity occurred in
6 of the 24 cases with 21 of 47 employees returning to work. Fourteen of the
employees who returned to work were employees in one case. The chart below
provides statistical data from the cases in which reinstatement was not
achieved.




                                       4
               Cases with 1 Employee                77.8%
               Settlements with more
                                                    38.9%
               than 100% Backpay
               Non-Board Settlements                61.1%
               Informal Settlements                 27.8%
               Reinstatement Declined –
                                                    27.8%
               before settlement
               Reinstatement Waived –
                                                    72.2%
               after settlement

As noted below, data related to organizing campaign and first contract
bargaining cases in CATS was determined not to be reliable, so statistics
related to the Agency as a whole were not computed.

Operations-Management commented that Agency policy prohibits Board agents
from being involved in agreements that use backpay as a tradeoff for
reinstatement. The comments noted that often a waiver of reinstatement
cannot be avoided because discharged employees are required to mitigate their
damages by promptly beginning a search for alternate employment. If an
employee secures alternative comparable employment, it is likely that the
employee will decline an offer of reinstatement. Operations-Management also
noted that there is no effective means that the Agency has to require that an
employee return to his or her former position if the employee and employer
reach an agreement for backpay and a waiver of reinstatement. Even if an
agreement for reinstatement and backpay is disapproved by a Regional
Director, an employee can refuse to cooperate with the prosecution of the case
or an Administrative Law Judge can approve the settlement over the objections
of the General Counsel. The comments stated that for these reasons, the
Agency pays so much attention to timely investigation and early settlement of
merit discharge cases, and when a settlement cannot be reached a preliminary
injunction requiring reinstatement can be sought from the District Court.


BACKPAY CONTROLS

The Government Accountability Office’s (GAO) Standards for Internal Control in
the Federal Government states that internal control activities help ensure that
management's directives are carried out. Control activities are the policies,
procedures, techniques, and mechanisms that enforce management’s
directives. They include a wide range of diverse activities such as approvals,
authorizations, verifications, performance reviews, and the creation and
maintenance of related records which provide evidence of execution of these
activities. The Standards also note that internal control is not one event, but a
series of actions and activities that occur throughout an entity’s operations and
on an ongoing basis.


                                       5
We identified several policies that were not being complied with. These policies
related to obtaining proper authorization for actions, calculating backpay, and
maintaining appropriate documentation. These items are discussed in detail
below. Our findings were similar to those identified in annual quality reviews
of Regional Offices conducted by Operations-Management. Although those
reviews determine whether policies are being followed, the reviews do not
happen on an ongoing basis and did not prevent non-compliances with Agency
policy from occurring.

Operations-Management commented that the issues we identified below with
respect to data integrity and weaknesses in management of the compliance
program will be addressed in the design of NxGen, the Agency's new case
management/document management system.

Obtaining Information to Calculate Backpay Early

The Casehandling Manual states that because estimates of backpay liability
are often necessary for the parties to consider settlement options prior to the
issuance of complaint, all information in the charging party’s and/or
employees’ possession that is relevant to calculating backpay should be
obtained as part of the investigation. Information that should routinely be
obtained during the initial investigations and should generally be included in
affidavits in 8(a)(3) discharge cases includes contact information, job
classifications, wage rates, hours of work, overtime, benefits, and bonuses.

In all four Regional Offices visited, we identified cases in which the hours and
wages, the most basic information needed to calculate backpay, should have
been included in the initial affidavit, but were not. These are summarized by
Region in the table below.

                Region 4         Region 9            Region 16      Region 19
               Num    Pct       Num    Pct          Num     Pct    Num     Pct
In               11    68.8       16    88.9          12    70.6      9    60.0
Affidavit
Not in             5     31.2        2       11.1      5    29.4        6    40.0
Affidavit

Interim Earnings in Affidavits

The Casehandling Manual also states that it is not necessary or appropriate to
include the identity of interim employers and the wages received by employees
during the backpay period in an affidavit. We identified seven cases in three of
the four Regional Offices visited with interim earnings included in an affidavit,
as shown in the table below.




                                         6
                                              Number of Cases
                 Region   4 – Philadelphia          0
                 Region   9 – Cincinnati            2
                 Region   16 – Fort Worth           1
                 Region   19 – Seattle              4

Backpay Forms to Employees

The Casehandling Manual states that the Compliance Officer should establish
contact with employees as soon as possible after the Region has determined
that a violation has occurred that might result in a backpay remedy, both to
begin collecting information needed to determine backpay and to advise the
employee of his or her responsibilities. To maintain contact and to provide
appropriate information, the NLRB forms related to backpay should be sent to
all identified employees at the time the Region determines that a charge has
merit and, if possible, no later than at the time it issues complaint. The paper
case file should reflect all action taken in the investigation and be kept up-to-
date.

As shown in the following table, for the case files in our sample that this
requirement was applicable, we generally found a lack of documentation that
the backpay forms were being sent to employees.

                       Region 4       Region 9        Region 16         Region 19
                      Num    Pct     Num    Pct      Num    Pct        Num    Pct
Documented               4   40.0       4   40.0        4    50.0         4    44.4
Not documented           6   60.0       6   60.0        4    50.0         5    55.6

Documentation of Backpay Calculation

The Casehandling Manual states that the Region’s files in meritorious cases
should contain documentation clearly describing the Region’s assessment of
the backpay due. In rare situations, detailed computations may not be
required if preparing the computations is not feasible or worth the investment
of time. In the event the Region determines it is not feasible or necessary to
calculate backpay, the file should clearly document this determination and set
forth the reasons that such determination was made.

As shown in the following table, for the case files in our sample that this
requirement was applicable, we generally found documentation of the
assessment of backpay due.




                                        7
                  Region 4        Region 9           Region 16      Region 19
                 Num    Pct      Num    Pct         Num    Pct     Num    Pct
Documented         16   88.9        8   80.0          12    92.3     15    83.3
Not
                     2    11.1       2       20.0      1     7.7      3    16.7
Documented

Documentation of Waiver of Reinstatement

The NLRB Casehandling Manual states that if, pursuant to a settlement, an
employee voluntarily agrees to waive reinstatement, a signed waiver must be
obtained clearly in writing. In all four Regional Offices visited, we identified
cases in which a written waiver of reinstatement should have been documented
in the case file, but was not documented. These are summarized by Region in
the table below.

                  Region 4        Region 9           Region 16      Region 19
                 Num    Pct      Num    Pct         Num    Pct     Num    Pct
Documented          2   15.4        3   42.9           5    62.5      4    40.0
Not
                    11    84.6       4       57.1      3    37.5      6    60.0
Documented

Backpay Settlements

The Casehandling Manual provides authority to the Regional Director to accept
backpay settlements without authorization from Operations-Management if the
backpay settlement will constitute at least 80 percent, but not more than 100
percent of the full backpay and interest due. The Casehandling Manual also
states that Regional Offices should strive to obtain 100 percent of the backpay
determined by the Region. It adds that this requirement is not meant to imply
that settlements meeting the threshold should be routinely accepted, and that
it constitutes nothing more than a trigger for the need to obtain clearance. The
chart below shows the distribution of the percentage of backpay received to
backpay due in settled cases.




                                         8
                                                    Number
                     Percentage of Backpay          of
                     Received                       Cases
                     0-80 Percent                         16
                     80-100 Percent                       24
                         80 Percent                    11
                         81-85 Percent                  5
                         86-90 Percent                  3
                         91-95 Percent                  3
                         96-100 Percent                 2
                     100 Percent *                        38
                     Greater than 100 Percent             11

       * We note that the 100 percent figure may be misleading in that for
       non-Board settlements prior to a merit determination, which
       account for 21 of these cases, Regional staff are allowed to use the
       same amount for backpay due and backpay paid if sufficient
       information is not available to determine the amount of backpay
       that was actually due. This occurs because the Regional Offices
       are not required to calculate the backpay prior to a merit
       determination.

Less than 80 Percent Backpay

For the 16 cases that had backpay paid of less than 80 percent, 5 cases were
pre-complaint non-Board settlements. Justifications for accepting backpay
less than 80 percent included:

   Uncertainty / Risk of Litigation;
   Uncertainty about the calculation of the backpay;
   Bankruptcy of the employer;
   Resolution of a grievance resolved through the Union’s processes;
   Recognition of Union / Signing of a collective-bargaining agreement; and
   Charging Party’s satisfaction with the offer.

Settling at 80 Percent

We identified cases in which the Regional Offices appeared to negotiate or hold
discussions showing that they were attempting to settle or justify a settlement
at the 80 percent threshold. Examples include:

   In one case, multiple communications with the employer's attorney
    conveyed a backpay calculation to the employer’s attorney that computed
    80 percent of backpay. Additionally, a counteroffer from the Union was



                                        9
    transmitted and noted “This is the 80% figure.” The case was settled at the
    80 percent figure.

   In a conversation with the employer's attorney, the backpay calculation was
    discussed, which included an amount for 80 percent of backpay. The
    parties eventually settled at 80 percent of backpay.

   In a conference call with an Administrative Law Judge and the employer’s
    attorney, the Board agent provided both the 100 percent and 80 percent
    amounts in a settlement discussion. The parties settled at 80 percent of
    backpay due with reinstatement.

   In an internal discussion regarding a case, the e-mail thread among the
    Regional Office staff noted that there is an “80 percent problem” and that
    they need to get the backpay amount over 80 percent.

Staff in the Regional Offices visited noted that the 80 percent threshold is
public knowledge, and that the Casehandling Manual is posted on the Internet.
As a result, the parties in cases know the extent that the Regional Office can
maneuver and still approve a settlement.

Oversight of Settlements by Operations-Management

In three of the four Regional Offices visited, cases were identified in which there
was no evidence that the required authorization from Operations-Management
was obtained. These are summarized by Regional Office in the table below.

                    Region 4        Region 9          Region 16      Region 19
                   Num    Pct      Num    Pct        Num    Pct     Num    Pct
Documented            5 100.0         0    0.0          5    71.4      0     0.0
Not
                       0     0.0        4    100.0      2    28.6        6   100.0
Documented

The 12 cases that were settled without proper authorization accounted for
approximately $736,000 in backpay paid. They were mainly the result of non-
Board settlements, mostly occurring after the issuance of a complaint, but
prior to the beginning of the hearing. In 9 of the 12 cases, the amount of
backpay paid equaled the amount of backpay due in CATS, even though the file
contained a calculation with a differing amount. For 6 cases, the backpay paid
was greater than 100 percent of backpay due.

The Casehandling Manual also states that any compromise from obtaining 100
percent backpay must be warranted by the facts, law, and circumstances of the
case. Additionally, in the event that the settlement falls between 80 and 100
percent of calculated backpay, but represents more than minor concessions,


                                        10
the Region should submit to Operations-Management a copy of the Closed
Case Report showing the amount computed and the amount collected, along
with a copy of any memorandum that Operations-Management issued
authorizing settlement or closure of the case. There was no evidence that the
Closed Case Reports were sent to Operations-Management in any of the
applicable cases tested. Staff in Operations-Management stated that they had
not received the Closed Case Reports from the Regional Offices because the
Closed Case Reports are available in CATS and the Regional Offices consider
that the concessions involved in these cases are not more than minor.

Employer’s Share of FICA Tax

According to the Casehandling Manual, backpay is an amount representing
earnings and other forms of compensation. The Casehandling Manual states
that when an employer remits backpay to the Agency in the form of a check
that is made payable to the Agency, the amount should reflect all backpay,
interest, and other amounts, such as reimbursement for medical expenses,
that are due, as well as the employer's Federal Insurance Contribution Act
(FICA) tax share of the wage component of backpay.

In one case, an employer remitted a check for backpay made payable to the
Agency for an amount that matched the figure specified in the Compliance
Stipulation, but did not include an additional amount for the employer’s FICA
tax share. The stipulation stated only that the payment represented the full
amount owed to the employee for backpay and did not address the employer's
share of the FICA tax. The instructions provided to the employer by the
Regional Office did not mention the employer’s share of the FICA tax. When
the Agency paid the backpay to the employee, it withheld $2,100 for the
employer’s share of the FICA tax. By definition in the Casehandling Manual,
the employer's share of the FICA tax is not backpay and is not due to the
employee. Additionally, the FICA taxes are payable by the employer to the
Government.


DATA ACCURACY OF CATS

The GAO’s Standards for Internal Control in the Federal Government states
that information should be recorded and communicated to management and
others within the entity who need it and in a form and within a time frame that
enables them to carry out their internal control and other responsibilities. The
standards also note that for an entity to run and control its operations, that
the data must be relevant, reliable, and timely.

A CATS data integrity program was implemented in 2002 to ensure that
information entered into CATS was accurate and reliable. In 2006, the Agency



                                      11
implemented a new CATS Data Integrity Program. The related guidance stated
that Regions should incorporate the use of standard queries as the foundation
for their Data Integrity Plan. Such queries would be used to identify missing or
illogical data. The guidance also states that Regions must be “vigilant” with
respect to information that cannot be verified through the use of queries.

We tested 23 data elements from CATS against the case files. These data
elements were selected based on their relevance to backpay and reinstatement
and key processing events in a case. A list of these data elements is included
as an attachment. We identified errors in 14 data elements and found that the
errors in 8 data elements were significant in that the rate exceeded 10 percent
in any one of the Regional Offices. For those eight elements, the error rate for
each Regional Office is provided in the table below.

                        Region 4         Region 9       Region 16       Region 19
                      Errors Pct       Errors Pct      Errors Pct      Errors Pct
Number of
Employees
                            1    4.2        2    8.3        3   12.5        3   12.5
Eligible for
Reinstatement
Total Backpay
                          12    50.0        9   37.5        7   29.2       11   45.8
Due
Total Backpay
                            2    8.3        3   12.5        2    8.3        0       0.0
Paid by Employer
* Organizing
Campaign/First
                            9   37.5        0    0.0        4   16.7        4   16.7
Contract
Bargaining
Date Closed                 0    0.0        0    0.0        3   12.5        1       4.2
Date Filed                  0    0.0        0    0.0        3   12.5        0       0.0
Date Assigned to
                            0    0.0        0    0.0        0    0.0        3   12.5
Compliance

(* This line item includes two CATS data elements)

The types of errors identified would not be detected in a standard CATS query
because they were generally not the result of missing or illogical data.
Additionally, the standard queries are not broad enough to encompass all data
fields. Based on the errors we identified, the controls were not sufficient to
prevent the data errors.

Using Backpay Data to Determine Agencywide Statistics

We found that the CATS data related to backpay cases does not meet the
reliability standard set forth in the GAO’s Standards for Internal Control in the


                                       12
Federal Government. In reaching this determination, we used an error rate of
10 percent in any one of the Regions tested as a showing of unreliability. We
therefore cannot rely on the CATS data to determine Agencywide statistics for
the total number of employees eligible for reinstatement, the total amount of
backpay due, or the number of cases involving organizing campaigns.

Total Backpay Due

The Casehandling Manual states that while the entries for the amount of
backpay paid entered onto the Closed Case Report should reflect amounts
actually paid, the entries for the amount of backpay due should reflect the full
remedial backpay and interest or refunds due, based on the violations at issue
and following established methods of determining backpay liabilities. The
amounts from the Closed Case Report are also entered into CATS.

In the majority of cases with a data error, the total amount due listed in CATS
equaled the total amount paid, despite the fact that a calculation of the actual
backpay due was located in the case file and differed from the amount actually
paid.

The Total Backpay Due is an important number because it is the basis for
determining whether the backpay paid meets the threshold for requiring
settlement authorization from Operations-Management. This has been a
recurring item found during Operations-Management’s quality reviews,
including the most recent summary of the FY 2009 quality reviews performed.


INCONSISTENT CRITERIA

The criteria from the NLRB's Casehandling Manual regarding the requirement
for Operations-Management’s clearance to approve a non-Board settlement in
which reinstatement is waived in exchange for backpay greater than 100
percent are inconsistent.

Section 10140.2 of Volume I of the NLRB's Casehandling Manual, Backpay,
states "For guidance, including clearance from the Division of Operations-
Management, concerning non-Board settlements with backpay amounting to
less than 80 percent or more than 100 percent of net backpay, see Sec. 11752
and Secs. 10592.1, .4, and .8 of the Compliance Manual." However, the cited
sections are not consistent with each other. Section 10592.8 states that all
settlements, including non-Board settlements, in which an employee is to
receive more than 100 percent must be approved by Operations-Management.
Section 11752, referring to pre-complaint submissions to Operations-
Management, states that certain settlements of more than 100 percent of net
backpay require Operations-Management’s clearance, including non-Board
settlements where the Regional Office has decided to issue complaint.


                                       13
Section 10592.8 implies that all non-Board settlements with backpay greater
than 100 percent must be approved, while Section 11752 implies that only the
non-Board settlements in which a merit determination has been made need to
be cleared. As a result, Regional Offices may handle non-Board settlements
with greater than 100 percent backpay inconsistently. We identified one case
with greater than 100 percent backpay in which different understandings of
the standard were documented, with the Regional Office eventually determining
not to seek Operations-Management’s clearance.

In December 2009, the Quality Committee’s Comprehensive Report on Quality
Casehandling stated that “adjusted withdrawals and non-Board settlements, in
which a merit determination has not been made, do not require a minimum of
80 percent backpay or the approval of the Division of Operations-Management,
except in situations where backpay is more than 100 percent.” This confirms
the understanding that when backpay is greater than 100 percent, regardless
of the timing of the settlement, authorization must be obtained from
Operations-Management.

Operations-Management noted in its comments that the confusion in the
casehandling instructions with respect to the clearance requirement for
backpay settlements of less than 80 percent or greater that 100 percent will be
addressed.


                            RECOMMENDATIONS

We recommend that the Associate General Counsel, Division of Operations-
Management:

   1. Develop and implement control techniques to provide reasonable
      assurance of compliance with Agency policies regarding backpay.
      Because the Agency is migrating to the NxGen system, a new
      casehandling system, that process should be with a view towards that
      system and its use of electronic case files.

   2. Develop and implement control techniques to provide reasonable
      assurance that data related to backpay is accurate. Because the Agency
      is migrating to the NxGen system, a new casehandling system, that
      process should be with a view towards that system.

   3. Clarify policies regarding approval of settlements with backpay in excess
      of 100 percent.




                                      14
                                                                ATTACHMENT

                      CATS DATA ELEMENTS TESTED

      CATS Field Name                       Description
1.    Allegations, Keyname containing       First Contract Bargaining
      "Initial Contract"
2.    CCR, Closing Stage                    Closing Stage
3.    CCR, Closing Type                     Closing Type
4.    CCR, Date Closed                      Date Closed
5.    CCR, Compliance Type                  Compliance Type
6.    CCR, Remedies, Backpay, Amount        Total Backpay Paid by
      Paid to Company                       Company
7.    CCR, Remedies, Backpay, Amount        Total Backpay Paid by Union
      Paid to Union
8.    CCR, Remedies, Backpay, Total         Total Backpay Due
      Amount Due
9.    CCR, Remedies, Backpay, Total         Number of Employees Receiving
      Number Receiving                      Backpay
10.   CCR, Remedies, Fees, Amount Paid      Total Fees Paid by Company
      By Company
11.   CCR, Remedies, Fees, Amount Paid to   Total Fees Paid by Union
      Union
12.   CCR, Remedies, Fees, Number           Number of Employees Receiving
      Receiving                             Fees
13.   CCR, Remedies, Fees, Total Due        Total Fees Due
14.   CCR, Remedies, Reinstatement, No.     Number of Employees Eligible
      Discriminatees                        for Reinstatement
15.   CCR, Remedies, Reinstatement, No.     Number of Employees on
      on Pref. List                         Preferred List
16.   CCR, Remedies, Reinstatement,         Number of Employees
      Number Accepting                      Accepting Reinstatement
17.   CCR, Remedies, Reinstatement,         Number of Employees Declining
      Number Declining                      Reinstatement
18.   CCR, Remedies, Reinstatement,         Number of Employees Waiving
      Number Waiving                        Reinstatement
19.   Closing, Method                       Closing Method
20.   Closing, Timing                       Closing Timing
21.   Compliance, Date Assigned to          Date Assigned to Compliance
      Compliance
22.   Date Charge Filed                     Date Charge Filed
23.   Determination, Org. Campaign          Organizing Campaign




                                    15
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Operations-Management


Memorandum
       TO:   David Berry, Inspector General                    DATE:    August 27,2010

    FROM:    Richard A. Siegel, Associate General Counsel    Rfh \
                                                              {~!
SUBJECT:     Discussion Draft of Report "Financial Remedies
             and Other Settlement Terms" - Agency Response

          Management appreciates the opportunity to provide comments in response to the
   Draft Report of the audit conducted by the Office of the Inspector General of financial
   remedies and other settlement terms provided in meritorious unfair labor practice cases.
   Generally, the issues addressed in the audit are issues of concern to the Office of
   General Counsel and issues that the Division of Operations-Management acting for the
   General Counsel has sought to address with its oversight of Regional Office operations.
   We welcome the report and intend to use the information provided to'improve Regional
   Office operations.

          Several observations made in the draft report concerning the enforcement of the
   National Labor Relations Act require comment, in my view. The Draft Report recounts
   concerns voiced by stakeholders that backpay is often used as a tradeoff for
   reinstatement and that if employees who are discharged illegally after engaging in
   protected union activities do not return to the work place the union organizing efforts of
   which they were a part will often be fatally undercut.

            I am concerned by report of the perception of "stakeholders" that backpay is used
   "as a tradeoff for reinstatement." Agency policy prohibits Board agents from being
   involved in such an agreement and I note that your report does not indicated that you
   found evidence of such activity. That is not to say that it can and does occur,
   particularly in "nonBoard settlements where the Board agents may not be familiar with
   settlement discussions between the employee and employer. Unfortunately there is
   often no way waiver of reinstatement can be avoided. Employees who are discharged
   often promptly begin their search for an alternative job and an alternative paycheck. If
   they file unfair labor practice charges complaining of their discharge, the Board agent
   will inform them of their responsibility under the law to mitigate their losses with a
   diligent search for work. The longer an employee must wait for an offer of
   reinstatement, the longer he or she will have attempted to find alternative employment
   and the greater the chances of their success. If an employee secures alternative
   comparable employment the greater the likelihood that an offer to return to work for the
   discriminating employer will be declined. Anecdotally, the fact that an employee has
   been unlawfully discriminated against by the employer does not make returning to the
                                       -2-

workplace an attractive option for him or her, particularly when another job has been
secured.

         If the employee wants the money and is willing to forego reinstatement, there is
no effective means by which the Agency can require the employee to return to his or her
former position. While Regional Directors can disapprove a charge withdrawal request
submitted as part of a greater than 100% non-Board settlement where the employee
waives reinstatement, the disapproval will likely not result in the return of the employee
to his or her former job. If the employee and the employer have made a mutually
acceptable deal, the employee will refuse to cooperate with the Region in the
prosecution of the case. Even if the Region issues a subpoena to the employee to
coerce the employee's appearance at a hearing, the presiding administrative law judge
will likely approve a settlement over Counsel for General Counsel's objection.

        The best way to achieve the best remedial result under the Act when an
employee is discharged unlawfully is to secure the reinstatement of the employee by
settlement promptly after an unfair labor practice charge complaining of the violation is
filed. In the absence of prompt reinstatement through settlement, a remedy should be
obtained by a reinstatement order promptly secured. It is for this reason that we pay so
much attention to the timely investigation and early settlement of merit discharge cases.
Where there is no settlement, early reinstatement is achievable through Section 10U) of
the Act, under which the Board can petition a United States district court for a
preliminary injunction requiring reinstatement of the discharged employee and a cease
and desist order, enforceable in a contempt of court proceeding, to prohibit a repetition
of the employer's unlawful conduct.

        As the report observes, the Agency is in the process of developing a new case
management/document management system, "NxGen," to replace the current Case
Activity Tracking System. The issues identified in the report with respect to data
integrity and weaknesses in management of the compliance program will be addressed
in the design of NxGen. Any confusion in case handling instructions with respect to
clearance requirements for backpay settlements of less than 80% or greater than 100%
will be addressed. The importance of investigating lost wages early in the processing of
discharge cases will be emphasized in Agency training, as it was recently in our Senior
Agent Training Conference.


                                                R. A. S.
